      Department of Homeland Security



    Costs Claimed by Sumter County, FL, Fire Rescue 

     under Fire Station Construction Grant Number 

                 EMW-2009-FC-05940R 





             American Recovery and Reinvestment Act of 2009



OIG-12-126                                                    September 2012

                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                Washinglon. DC 20528 1 www.oig.dhs.gov



                                           SEP 20 1012

MEMORANDUM FOR:                Elizabeth M. Harman
                               Ass istant Ad mi nistrator
                               Grant Programs Directorate
                               Federa l Emergency Managem en t Agency

                                                             '-I;/' '/   "
                               Ann e l. Richards ~o( (~
                                                      '1
FROM:
                               Ass istant In spect or General fo r Au dits

SUBJECT:                       Costs Claimed by Sumter County, FL, Fire Rescue under Fire
                               Station Construction Grant Number EMW·2009-FC-05940R

Attached fo r yo ur information is our fin al letter report, Costs Claim ed by Sumter County,
FL, Fire Rescue under Fire Station Construction Grant Number EMW-2009-FC-05940R.
Sin ce th e report co ntain s no recommendations to Fede ral Em ergency Man age m en t
Age ncy Officials, we did not solicit form al comm en t s.

Con sistent with our responsibility under t he Inspector General Act, w e are providing
copies of our report to congressional committees wit h ove rsight an d approp riatio n
respons ibility over the Department of Home land Security. We will post the report on
ou r we bsite for pu bl ic dissem inatio n.

Major contributors t o thi s re port are Roge r LaRouche, Director of Recovery Act Audits;
Matt Mongin, Auditor; and Ignacio Yanes, Re port Referencer.

Please ca ll m e with any question, or your sta ff m ay contact John E. McCoy II, Deputy
Assistant Inspector General for Aud its, at (202) 254-4100.

Attach m ent
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   ThefAmericanfRecoveryfandfReinvestmentfActfoff2009f(Recovery Act), as amended,
   appropriated $210 million to the Federal Emergency Management Agency (FEMA) for
   competitive grants for modifying, upgrading, or constructing nonfederal fire stations.
   On September 25, 2009, FEMA awarded a grant of $2,131,638 to the Sumter County,
   Florida, Fire Rescue (Sumter County) to construct two new fire stations and
   substantially renovate an existing fire station.

   The grant specified a period of performance from September 25, 2009, to September
   24, 2012. As of March 1, 2012, Sumter County had completed construction of the two
   new fire stations, renovated a fire station, and received reimbursements of $2,025,056
   from FEMA for design, engineering, construction, and management of the project. See
   figures 1 – 3 for photographs of the fire stations.

   Figure 1: Sumter County Fire Station #22




   f
   f
   f

   Source: Sumter Country Fire Rescue, Florida 

    

    

    

    

    



www.oig.dhs.gov                                    2                                 OIG-12-126
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Figure 2. Sumter County Fire Station # 31 





   Source: Sumter County Fire Rescue, Florida

   Figure 3. Sumter County Fire Station # 33




   Source: Sumter County Fire Rescue, Florida

   Under the terms of the grant, Sumter County agreed to use the grant funds according
   to FEMA’s FYf2009 A.R.R.A.fAssistanceftofFirefighters,fFirefStationfConstructionfGrants,f
   GuidancefandfApplicationfKitf(GuidancefandfApplicationfKit),fand to comply with Office
   of Management and Budget (OMB) Circular A-87, Revised, CostfPrinciplesfforfState,f
   LocalfandfIndianfTribalfGovernments,fand the UniformfAdministrativefRequirementsfforf


www.oig.dhs.gov                                    3                                  OIG-12-126
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   GrantsfandfCooperativefAgreementsftofStatefandfLocalfGovernmentsfcontained in the
   Code of Federal Regulations (44 CFR Part 13).

   The grant also includes requirements for complying with OMB Circular A-133, Revised,
   AuditsfoffStates,fLocalfGovernments,fandfNon-ProfitfOrganizations,fand Recovery Act
   provisions for submitting quarterly recipient reports to the Federal Government on the
   use of Recovery Act funds; paying prevailing wages as determined by the Secretary of
   Labor; and using American-made iron, steel, and manufactured goods.


   Results of Audit
   Sumter County spent $3,545,448 to complete work on the three fire stations. From
   that amount, we determined that Sumter County incurred sufficient allowable,
   allocable, and reasonable costs to earn the $2,025,056 it claimed for reimbursement.
   In reviewing incurred costs, we identified purchases in excess of costs eligible for
   reimbursement that would not have qualified for repayment. We have listed some of
   these purchases in appendix B for FEMA’s and other grantee’s information in
   administering fire station construction grants. In addition, we concluded that Sumter
   County complied with grant requirements for submitting quarterly Recovery Act
   reports to the Federal Government and for ensuring that contractors were paid
   prevailing wages and used American iron, steel, and manufactured goods in the
   construction of the new fire stations.

   Compliance With Requirements for Reporting, Buying American, and Paying
   Prevailing Wages

   The Recovery Act requires recipients to submit quarterly reports on project activities to
   the Federal agency providing the grant; to ensure that projects are accomplished with
   American-made iron, steel, and manufactured goods; and to ensure that laborers and
   mechanics are paid, at a minimum, prevailing wages as determined by the Secretary of
   Labor under 40 U.S.C. Chapter 31, Subchapter IV. Sumter County submitted quarterly
   reports to FEMA on a timely basis and assured “Buy America” and prevailing wage
   provisions were followed during the construction of the fire stations by obtaining
   contractor and subcontractor certifications and by the on-site oversight of the Architect
   and Project Manager. Additionally, the Director of the Financial Services Department
   advised us they reviewed pay vouchers to confirm payment of prevailing wages.




www.oig.dhs.gov                                4                                      OIG-12-126
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by Sumter County
   were allowable, allocable, and reasonable according to the grant and applicable Federal
   regulations.

   This audit covered $3,545,448 recorded as project costs by Sumter County from
   September 2009 to January 2012.

   In conducting our audit, we did the following:

   •	 Obtained and reviewed the Recovery Act, the grant application and award, the
      grant GuidancefandfApplicationfKit, and Federal cost principles and grant
      administrative requirements.

   •	 Interviewed Sumter County personnel to gain an understanding of their accounting
      system and the applicable internal controls.

   •	 Reviewed the fiscal year 2010 single audit report and interviewed the responsible
      auditor to identify issues and other conditions that could affect our examination.

   •	 Reviewed the recipient’s internal controls specifically related to our objectives.

   •	 Examined vendor invoices amounting to $3,545,448 and other evidence supporting
      these costs to assess their allowability and eligibility for FEMA reimbursement.

   •	 Reviewed contract files and supporting documentation for primary contractors and
      professional service providers for the fires station construction projects.

   •	 Reviewed accounting transactions related to purchases, payments, and receipt of
      FEMA reimbursements.




www.oig.dhs.gov                                5                                   	   OIG-12-126
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   •	 Used the grant provisions and applicable Federal requirements to determine
      whether amounts claimed were eligible for reimbursement.

   •	 Performed fraud detection procedures.

   •	 Inspected the new fire stations and surrounding property.

   We conducted this performance audit between March and August, 2012, pursuant to the
   InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               6                                	   OIG-12-126
                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix B
   Purchases Not Eligible for Reimbursement


                                ITEM                   STATION        COST*
                  Landscape Irrigation                   #22           $6,800
                  Sewage Lift Station                    #22           19,538
                  Road Extension                         #22           48,572
                  Furniture                              #22            5,823
                  Relocate Transformer                   #22            6794
                  Landscape Change                       #22            9,454
                  Irrigation System                      #22            1,398
                  Furniture                              #22           19,950
                  Radio Antenna                          #22              851
                  Heavy Duty Washer                      #22           19,412
                  Irrigation                             #22              596
                  Audit Expense                          #22            6,685
                  Furniture                              #31            7,820
                  Health Department Generator            #31           57,369
                  Natural Gas Line                       #31            1,576
                  Water Main                             #31           19,711
                  Audit Expense                          #31            6,685
                  Sewage Lift Station                    #33            5,700
                  Irrigation/Landscaping                 #33           20,899
                  Furniture                              #33            9,392
                  Relocate Transformer                   #33            5,040
                  Heavy Duty Washer                      #33           17,036
                  Radio Antenna                          #33              850
                  Water Main                             #33           83,528
                  Audit Expense                          #33            6,685

                  * These items were purchased with Sumter County funds.




www.oig.dhs.gov                                       7                         OIG-12-126
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Recovery Act Coordinator

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate,
     Federal Emergency Management Agency
   Audit Liaison Official

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  8                         OIG-12-126
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
